          United States Government
   National Labor Relations Board
              Office of Inspector General




SEMIANNUAL

REPORT
April 1, 2010 – September 30, 2010




                    NLRB Semiannual report   1
TABLE OF
contents
Executive Summary..........................................................................1

Agency Profile...................................................................................2

Office of Inspector General...........................................................4

Audit Program...................................................................................5

Investigations Program....................................................................8

Legislation, Regulations and Policy............................................. 10

Liaison Activities............................................................................ 11

Information Required by the Act................................................ 12

Audit Reports by Subject Matter................................................. 13

Appendix......................................................................................... 15
EXECUTIVE
SUMMARY

I
     hereby submit this Semiannual Report for the period April 1 –
     September 30, 2010. This report summarizes the major activities and
     accomplishments of the Office of Inspector General (OIG) of the
National Labor Relations Board and its submission is in accordance with
the Inspector General Act of 1978, as amended (IG Act). Section 5 of the
IG Act requires that the Chairman transmit this report to the appropriate
committees or subcommittees of the Congress within 30 days of its receipt.
In the audit program, the OIG issued one audit report and two inspection
reports. In the investigations program, the OIG processed 137 contacts,
initiated 5 cases, and closed 2 cases. Our investigative efforts resulted in one
separation while the investigation was pending and one agreement for leave
without pay in lieu of other disciplinary action. The OIG also referred three
matters to the Department of Justice. Details on these accomplishments
can be found in the body of this report.
I appreciate the support of all Agency employees in achieving the
accomplishments set forth in this report.




                                              David Berry
                                              Inspector General
                                              October 29, 2010




                                               NLRB Semiannual report              1
AGENCY
profile
    The National Labor Relations Board (NLRB or Agency) is an independent
    Federal agency established in 1935 to administer the National Labor
    Relations Act (NLRA). The NLRA is the principal labor relations law of
    the United States, and its provisions generally apply to private sector
    enterprises engaged in, or to activities affecting, interstate commerce.
    NLRB jurisdiction includes the U.S. Postal Service (other government
    entities, railroads, and airlines are not within NLRB’s jurisdiction).


The NLRB seeks to serve the public
interest by reducing interruptions
in commerce caused by industrial
strife. It does this by providing
orderly processes for protecting
and implementing the respective
rights of employees, employers,
and unions in their relations with
one another. The NLRB has two
principal functions: (1) to determine
and implement, through secret ballot
elections, the free democratic choice
by employees as to whether they            judicial body in deciding cases
wish to be represented by a union          on formal records. The General
in dealing with their employers and,       Counsel investigates and prosecutes
if so, by which union; and (2) to          unfair labor practices before
prevent and remedy unlawful acts,          administrative law judges, whose
called unfair labor practices, by          decisions may be appealed to the
either employers or unions.                Board; and, on behalf of the Board,
NLRB authority is divided by law           conducts secret ballot elections to
and delegation. The five-member            determine whether employees wish
Board primarily acts as a quasi-           to be represented by a union.

2    NLRB Semiannual report
                                                             Standing left to right:
                                                             Mark Gaston Pearce
                                                                 and Brian Hayes.
                                                               Seated left to right:
                                                           Craig Becker, Wilma B.
                                                            Liebman and Peter C.
                                                                       Schaumber.




The Board consists of the Chairman    designated Lafe Solomon as Acting
and four Members who are              General Counsel.
appointed by the President with the   The NLRB received an
advice and consent of the Senate.     appropriation of $283,400,000 for
Board Members serve staggered         Fiscal Year (FY) 2010 to fund a
terms of 5 years each. The General    ceiling of 1,685 full-time equivalents.
Counsel is also appointed by the      NLRB Headquarters is at 1099 14th
President with the advice and         Street, NW, Washington, DC.
consent of the Senate and serves
a 4-year term.                        In addition to the Headquarters
                                      building, employees are located
On June 22, 2010, Mark Gaston         in 51 field offices throughout the
Pearce and Brian Hayes were           country. Three satellite offices for
confirmed by the Senate as NLRB       the administrative law judges are
Board Members. Member Peter C.        located in Atlanta, San Francisco,
Schaumber’s term ended on August      and New York City. Since October
27, 2010. Chairman Wilma B.           2, 2000, field offices have included
Liebman and Board Member Craig        32 Regional Offices, 16 Resident
Becker continue to serve on the       Offices, and 3 Subregional Offices.
Board during this reporting period.
                                      Additional information about
General Counsel Ronald Meisburg       the NLRB can be found at
resigned effective June 20, 2010.     www.NLRB.gov.
On June 21, 2010, the President

                                          NLRB Semiannual report                       3
OFFICE OF
INSPECTOR GENERAL
    NLRB established the Office of Inspector General (OIG) pursuant to the
    1988 amendments to the Inspector General Act of 1978 (IG Act).



Resources
The FY 2010 OIG budget was
$1,281,700 for operations, of which
$213,500 was for contract services.
In addition to the Inspector General,
the OIG consists of a Counsel/
Assistant Inspector General
for Investigations, an Assistant
Inspector General for Audits, three
auditors, and a staff assistant. At
this time, the OIG is recruiting to
fill the Counsel/Assistant Inspector
General for Investigations position.




4    NLRB Semiannual report
AUDIT
program
   The Inspector General is to provide policy direction for and is to conduct,
   supervise, and coordinate audits relating to program operations of the
   Agency. During the reporting period, the OIG issued one audit and two
   inspection reports.

We issued Audit Report OIG-                that the backpay data in the Case
AMR-63-10-02, Financial                    Activity Tracking System is not
Remedies and Other Settlement              reliable. Overall, we believe that
Terms, on September 10, 2010.              the control environment that we
This audit was conducted to evaluate       observed and the unreliability of
the controls over the computation          the case processing data create a
of backpay and the nature of other         difficult management challenge.
settlement terms. We also reviewed         Our recommendations are tailored
the accuracy of backpay-related            to focus attention on that challenge.
data entered in the Agency’s case          Management stated that they intend
management system.                         to use the information provided to
We generally found that the controls       improve Regional Office operations.
over the computation of backpay            We issued Inspection Report
were not working in the sense that         OIG-INS-58-10-01, Restoration
the Regional Offices reviewed were         of Annual Leave, on May 13, 2010.
not following procedures set out           This inspection was conducted
in the casehandling manual. Some           to determine whether requests to
of our findings involve very basic         restore annual leave were processed
procedural requirements including          in accordance with Federal laws and
collecting information to calculate        regulations and whether requests
backpay and providing forms                were processed in accordance with
to employees. Others, however,             NLRB policies and procedures.
involve the exercise of the Agency’s
discretion to approve a settlement         Federal regulations state that for
of a case for less than 80 percent         annual leave to be restored, a
or more than 100 percent without           determination must be made that
proper authorization. We also found        an exigency is of such a major


                                                NLRB Semiannual report           5
importance that the annual leave       In total, those employees reported
may not be used. Our findings          working 1,867 hours. Another
questioned whether 1,447.50            6.4 percent of the Headquarters
hours of restored annual leave         employees reported coming into
met the statutory requirements         Headquarters on at least 1 day
of an exigency of business. We         during the Government closure.
also identified abuses in the leave    Those employees reported working
restoration process. Those abuses      a total of 128 hours.
included an apparent scheme to         When employees were asked what
accumulate the maximum possible        worked well for them and what the
leave prior to retirement to receive   Agency could do to improve the
the maximum lump sum payment           employee’s ability to perform work-
upon retirement and restoring leave    at-home, we received 133 responses.
that was not previously scheduled.     Of these, 87 employees indicated
We also found a limited number of      that everything worked well or
administrative processing issues. We   had no suggestions. Among the
did not identify any employees who     employees who have a Government
maintained a restored leave balance    Blackberry, 13 noted that the
beyond the time limit for use.         Blackberry was useful during the
We issued Inspection Report            Government closure. Some of the
OIG-INS-59-10-02, Headquarters         suggestions also noted that more
Productivity During the                planning or information about
Government Closure in                  management’s expectations would
February 2010, on June 2, 2010.        have been helpful.
This inspection was conducted to
determine the level of work that
                                       Audit Follow-up
                                       Agreed upon actions were not
occurred during the Government
                                       completed within 1 year on five
closure, what worked well for those
                                       audit reports.
employees, and what suggestions
the employees may have to improve      Audit of the NLRB Fiscal Year 2006
their ability to perform work-at-      Financial Statements, OIG-F-11-
home during a Government closure.      07-01, was issued on December 14,
                                       2006, and we reached agreement
Almost 88 percent of Headquarters
                                       with management on June 14,
employees responded to our
                                       2007. We continue to monitor
survey. We found that, on average,
                                       the Agency’s progress towards
49.6 percent of the Headquarters
                                       implementing the final open
employees who responded to our
                                       recommendation.
survey engaged in work-at-home
for about 3.32 hours on any given      Continuity of Operations, OIG-
day of the Government closure.         AMR-55-07-03, was issued on

6   NLRB Semiannual report
September 18, 2007, and we reached   agreement with management on that
agreement with management on that    date. Action has been completed on
date. Action has been completed on   five of the seven recommendations.
one of the three recommendations.    The Agency is actively working
The Agency is actively working       to implement the other two
to implement the other two           recommendations.
recommendations.                     Laptop Computer Accountability
Audit of the NLRB Fiscal Year        and Security, OIG-AMR-59-09-
2007 Financial Statements,           01, was issued on February 27,
OIG-F-12-08-01, was issued on        2009, and we reached agreement
December 17, 2007, and we reached    with management on that date.
agreement with management            None of the six recommendations
on that date. Action has been        made in the report have been
completed on two of the three        fully implemented. We will
recommendations. The Agency is       continue to monitor management’s
actively working to implement the    progress in implementing these
final recommendation.                recommendations.
Office of the Chief Information
Officer Procurement Functions,
OIG-AMR-57-08-01, was issued
on March 14, 2008, and we reached

                                        NLRB Semiannual report          7
INVESTIGATIONS
PROGRAM
     The Inspector General is to provide policy direction for and is to conduct,
     supervise, and coordinate investigations relating to the programs and
     operations of the Agency. The investigations resulted in one separation
     while the investigation was pending and one agreement for leave
     without pay in lieu of other disciplinary action. The OIG also referred
     three matters to the Department of Justice.



    Case Workload    Contacts Processed
                                               a Regional Office file. The
                                               local U.S. Attorney’s Office
 Open                                          declined prosecution. We
 (4/1/2010)
                8   Received            137
                                               received additional information
                    Initiated                  regarding the improper release
 Initiated      5   Investigation
                                        1
                                               of the documents. A report was
                    Opened Case —
                                ­­­            forwarded to the General Counsel.
 Closed         2   Referred to         0      OIG-I-446
                    Agency
                                              • Investigated an allegation that an
 Open               Non-Investigative
               11                       136     employee had a conflict of interest.
 (9/30/2010)        Disposition
                                                We referred an issue involving lack
                                                of candor during the investigation
Investigative Highlights                        to the local U.S. Attorney’s Office.
• Responded to a Congressional                  Prosecution was declined and the
  request for an investigation                  employee agreed to leave without
  involving the President’s Ethics              pay in lieu of other disciplinary
  Pledge. We found that the pledge              action. OIG-I-445
  and other Government ethics
                                              • Issued a report regarding the
  regulations were not violated.
                                                negligent handling of complaints
  OIG-I-447
                                                by Regional Office personnel.
• Investigated an allegation that               The employee involved will be
  documents were stolen from                    counseled. OIG-I-437


8     NLRB Semiannual report
• Referred a matter involving           The information received over
  providing false information during    the Hotline is the basis for
  an OIG investigation to the local     the initial review for potential
  U.S. Attorney’s Office. Prosecution   investigations. The information is
  was declined and our investigation    analyzed to determine if further
  continues. OIG-I-441                  inquiry is warranted. Most Hotline
                                        contacts are calls from members
Hotline                                 of the public seeking help on an
Employees and members of the
                                        employment-related problem or
public with information on fraud,
                                        issues outside OIG and/or Agency
waste, and abuse are encouraged
                                        jurisdiction. As appropriate, the
to contact the OIG. A log of calls
                                        OIG refers these callers to the
to a nationwide toll-free number
                                        Regional Office; local, state,
or the office numbers and a log of
                                        or Federal agencies; or private
mail, e-mail, and facsimile messages
                                        resources to provide assistance.
are maintained. All information
received, regardless of the method      During this reporting period, the
used, is referred to as Hotline         OIG received 137 Hotline contacts,
contacts.                               of which 40 were telephone calls or
                                        walk-ins and 97 were in writing.


                                            NLRB Semiannual report            9
LEGISLATION, REGULATIONS
AND POLICY
   The responsibilities and duties of an OIG include reviewing existing
   and proposed legislation and regulations relating to the programs and
   operations of its agency and making recommendations in the semiannual
   reports concerning the impact of such legislation or regulations on
   the economy and efficiency in the administration of programs and
   operations administered or financed by the agency or the prevention
   and detection of fraud and abuse in such programs and operations.


Legislation                             Regulations
During this reporting period, there     The Counsel to the Inspector
were no new legislative proposals       General is an advisory member
that would significantly impact the     of the Agency’s Rules Revision
programs and operations of the          Committee that develops changes to
Agency. There are two existing          the Agency’s procedural regulations.
legislative proposals that were
reported in prior semiannual reports
that remain before Congress. The
impact of these proposals on the
NLRB and its programs has been
the subject of extensive debate.




10 NLRB Semiannual report
LIAISON
ACTIVITIES
   The Inspector General is to recommend policies for, and is to conduct,
   supervise, or coordinate relationships between the Agency and other
   Federal agencies, state and local governmental agencies, and non-
   governmental entities. The Inspector General is to give particular
   regard to the activities of the Comptroller General of the United States.
   Similarly, we encourage OIG staff members to participate in Agency
   programs and activities.


Inspector General                         Government
Community                                 Accountability Office
The Inspector General is a member         The IG Act states that each
of the Council of the Inspectors          Inspector General shall give
General on Integrity and Efficiency.      particular regard to the activities
This organization consists of             of the Comptroller General of the
Inspectors General at the Federal         United States, as head of the U.S.
Government’s departments and              Government Accountability Office
agencies.                                 (GAO), with a view toward avoiding
The Assistant Inspector General           duplication and ensuring effective
for Audits, or designated auditors,       coordination and cooperation.
participated in the Federal Audit         We had no activity during this
Executive Council, Financial              reporting period that required
Statement Audit Network, and              coordination with GAO.
the Interagency Investigative
Data Mining Working Group.




                                               NLRB Semiannual report 11
INFORMATION
REQUIRED BY THE ACT
Certain information and statistics       funds could be put to better use.
based on the activities accomplished     See Tables 1 and 2.
during this period are required by       (10) There are no audit reports
section 5(a) of the IG Act to be         issued before the commencement of
included in the semiannual reports.      the reporting period for which no
These are set forth below:               management decision has been made
Section 5(a)                             by the end of the reporting period.
(1), (2), (7) OIG did not identify       (11) No significant revised
significant problems, abuses             management decisions were made
or deficiencies relating to the          during the reporting period.
administration of programs. For the
                                         (12) There are no significant
purpose of this section, we used the
                                         management decisions with which
definition of significant as set forth
                                         I am in disagreement.
in the Federal Managers’ Financial
Integrity Act.                           (13) There is no information to
                                         report under the requirements
(3) Corrective action has been
                                         of section 05(b) of the Federal
completed on all significant
                                         Financial Management Improvement
recommendations that were
                                         Act of 1996.
described in the previous
semiannual reports.                      (14) , (15) A peer review was not
                                         conducted during this reporting
(4) Three cases were referred to
                                         period. A peer review of the OIG’s
prosecutorial authorities.
                                         audit program was last conducted in
(5) No reports were made to the          February 2009 by the Federal Trade
Chairman that information or             Commission’s OIG. A copy of the
assistance requested by the Inspector    peer review report is at the appendix.
General was unreasonably refused or      There were no recommendations.
not provided.                            The OIG’s investigative program
(6) A listing by subject matter is       is not subject to the peer review
located on page 13.                      requirement.
(8), (9)	 No audit reports issued        (16) The OIG did not conduct a
during this period had questioned        peer review during this reporting
costs or recommendations that            period.

12 NLRB Semiannual report
AUDIT REPORTS BY
SUBJECT MATTER
                                                                           Funds To
Report Title                 Questioned     Unsupported     Ineligible
                                                                          Be Put To
and Number                     Costs           Costs          Costs
                                                                          Better Use

Securing Compliance
with Board Orders

Financial Remedies and
Other Settlement Terms            0              0               0              0
OIG-AMR-63-10-02



Table 1. Reports With                                            Dollar Value
                                          Number of
Questioned Costs                           Reports       Questioned      Unsupported
                                                           Costs            Costs
A. For which no management
  decision has been made by the              0               0                  0
  commencement of the period
B. Which were issued during
   the reporting period
                                             0               0                  0

Subtotals (A+B)                              0               0                  0
C. For which a management decision
  was made during the reporting              0               0                  0
  period

(i) Dollar value of disallowed costs         0               0                  0
(ii) Dollar value of costs not
   disallowed
                                             0               0                  0
D. For which no management
  decision has been made by the              0               0                  0
  end of the reporting period

Reports for which no management
decision was made within six months          0               0                  0
of issuance



                                                      NLRB Semiannual report 13
Table 2. Reports with
Recommendations that                    Number of   Funds To Be Put
                                         Reports     To Better Use
Funds be Put to Better Use
A. For which no management
   decision has been made by the           0              0
   commencement of the period

B. Which were issued during the
   reporting period
                                           0              0

Subtotals (A+B)                            0              0
C. For which a management decision
   was made during the reporting           0              0
   period

(i) Dollar value of recommendations
    that were agreed to by management
                                           0              0

(ii) Dollar value of recommendations
     that were not agreed to by            0              0
     management

D. For which no management decision
   has been made by the end of the         0              0
   reporting period

Reports for which no management
decision was made within six months        0              0
of issuance




14 NLRB Semiannual report
Appendix




           NLRB Semiannual report 15
16 NLRB Semiannual report
 Office of Inspector General
National Labor Relations Board
 1099 14th Street, NW, Suite 9820
     Washington, DC 20570


         (202) 273-1960
         (800) 736-2983
    OIGHOTLINE@nlrb.gov
       Fax (202) 273-2344
1099 14th Street, N.W.
Washington, D.C. 20570
